    Memorandum from the Office of the Inspector General



    May 17, 2007

    Randall P. Trusley, WT 4B-K

    FINAL REPORT – INSPECTION 2006-540I – REVIEW OF TVA’S VISA GOLD CARD
    USAGE



    Attached is the subject final report for your review and action. As discussed with you on
    March 1, 2007, the subject report is being issued in presentation format. Your written
    comments, which addressed your management decision and actions planned or taken,
    have been included in the report. Please notify us when final action is complete.

    Information contained in this report may be subject to public disclosure. Please advise us of
    any sensitive information in this report which you recommend be withheld.

    If you have any questions, please contact Rick C. Underwood, Project Manager, at
    (423) 751-3108 or Gregory C. Jaynes, Deputy Assistant Inspector General, Inspections, at
    (423) 751-7821. We appreciate the courtesy and cooperation received from your staff
    during this review.




for Ben R. Wagner
    Assistant Inspector General
      (Audits and Inspections)
    ET 3C-K

    RCU:BKA
    Attachment
    cc (Attachment):
         M. Lynne Bartlett, WT 4A-K
         John M. Hoskins, WT 7B-K
         Tom D. Kilgore, WT 7B-K
         Richard W. Moore, ET 4C-K
         Kim R. Patterson, WT 4A-K
         Emily J. Reynolds, OCP 1L-NST
         OIG File No. 2006-540I
Review of TVA VISA Gold Executive
          Expense Card

             2006-540I
           May 17, 2007
Summary of Findings

   We found:
      VISA Gold Executive Expense Cards (Gold Card) are generally being used in
       accordance with TVA policies and procedures.
      Policies addressing Gold Card use could be improved.
      Gold Card expenditures were for various purposes, including travel, meals,
       hospitality/gifts, economic development, and employee meetings. We noted instances
       where documented justifications (i.e., purpose, risk to TVA, and benefit to TVA) did not
       appear adequate to show the potential benefits warranted the expenditures.


   Management generally agreed with our findings and indicated that modifications
   would be made to policies and forms to strengthen controls governing Gold
   Card usage. The full text of TVA management’s response can be found in the
   Appendix. We agree with the planned actions which address our
   recommendations.




                                                                                                  2
Background

      Gold Cards are issued to TVA Board members, officers, and other designated
       employees for travel, entertainment, hospitality, and incidental miscellaneous
       expenses.
      Gold Card charges are directly billed to TVA.
      Gold Cards are to be used in accordance with TVA policy including the
       (1) VISA Gold Executive Expense Procedure; (2) Business Practice 3, Credit
       Cards; and (3) Business Practice 7, Hospitality.
      Business Practice 7, Hospitality, as revised in October 2006, specifically
       disallows certain charges such as golf/country club memberships, skyboxes
       and corporate suites at sporting/public events, and receptions/meetings held at
       unnecessarily lavish settings.
      A previous OIG review of the Gold Card Program found that at the end of
       Fiscal Year (FY) 1998 TVA had over 320 cardholders. As of August 28, 2006,
       there were 215 active Gold cardholders.




                                                                                    3
Background (continued)

                          Total VISA Gold Card Charges by Fiscal Year

                  3,500
      Thousands



                  3,000
                            *                   *
                  2,500

                  2,000
                                                                                           **
                  1,500                                               **
                  1,000

                   500

                     0
                          1997                 1998                   2005          2006 (11 Months)
                                                        Fiscal Year

                                                    Total Gold Card Charges
    * The figures for charges from FY 1997 and FY 1998 are taken from a prior OIG review.
    ** These totals and our review scope exclude purchases made as part of the Dell Employee Purchase Program.
       Payments to Dell totaled about $1.8 million in FY 2005 and $1.3 million in FY 2006. The Dell Employee
       Purchase Program began in FY 2001, and payments to Dell are made via Gold Cards issued to TVA
       Employee Accounting personnel. An employee accounts receivable is created for each Dell purchase, and
       payments to TVA are made via payroll deduction.

                                                                                                                 4
Background (continued)

       Of the 272 cardholders, 10 accounted for about 34 percent of all charges during
        the 23-month period of our review.

               TOP 10 VISA GOLD CARDHOLDERS BASED ON AMOUNTS SPENT
                                                                                          TRANS
                     TITLE                              DEPARTMENT                       DSBN AMT
    Manager, Customer Relations             Customer Service                         $ 303,155.83
    Business Support Representative-Multi Customer Service                           $ 301,755.83
    Project Manager, Community & Employee Community & Employee Relations Fossil
    Relations                             Power Group                                $ 245,339.56
                                          Research & Technology Applications,
                                          Resource Management, River System Ops
    Senior Manager, Resource Management & Environment                                $   97,493.51
    General Manager, Customer Service       Customer Service - Alabama               $   76,186.54
    General Manager, Customer Service       Customer Service - Mississippi           $   60,705.05
                                            Global & Community Development,
    Specialist, Target Market               Economic Development                     $   56,591.75
    Plant Manager, Nuclear                  Browns Ferry Nuclear Site, TVA Nuclear   $   56,316.06
    Project Manager, Economic Development   Global & Community Development,
    Initiatives                             Economic Development                     $   55,795.53
    General Manager, Market Development &   Global & Community Development,
    Field Operations                        Economic Development                     $   49,716.80


                                                                                                     5
Objective, Scope, and Methodology

    Objective
    To determine whether Gold Cards are being used in accordance with TVA policies and
    procedures.
    Scope
    Gold Card purchases made from October 1, 2004, to August 28, 2006.
    Methodology
    To achieve our objective, we:
       Obtained an understanding of the key processes and control activities relating to the
        Gold Card program by:
          –   Reviewing applicable TVA policies and procedures.
                   VISA Gold Executive Expense Procedure
                   Business Practice 3, Credit Cards
                   Business Practice 7, Hospitality
                   Business Practice 11, Travel
                   Accounting Procedure 15, Travel Allowance and Reimbursement
                   Customer Service and Marketing Business Practice 14, Visa Gold Card
          –   Interviewing TVA Employee Accounting Personnel.
                                                                                                6
Objective, Scope, and Methodology
(continued)
    Methodology (continued)
       Assessed the completeness of approvals for Gold Card statements with due dates
        between 10/16/2004 and 10/16/2006 using Audit Control Language Software.
       Compared our population of 23,087 Gold Card transactions with reimbursements to
        cardholders made through the Employee Reimbursement System (ERS) to identify any
        transactions where TVA paid the Gold Card provider and reimbursed the cardholder.
       Reviewed TVA training records to ensure that all TVA Gold cardholders and approvers had
        completed required on-line training.
       Conducted an analytical review of all 23,087 Gold Card transactions to gain a perspective
        on the types and magnitude of charges.
       Randomly selected 99 transactions totaling $13,335 and judgmentally selected another
        181 transactions totaling $718,947 to:
         – Assess the adequacy of supporting documentation
         – Determine if purchases for travel, entertainment, hospitality, and incidental miscellaneous expenses
           (including supplies and services) were allowed under TVA policies
         – Determine if purchases were made in a manner compliant with TVA policies
         – Determine if the transactions were accounted for in the appropriate TVA cost classification




                                                                                                              7
Objective, Scope, and Methodology
(continued)
   Methodology (continued)
      For the 90 cardholders related to the 99 statistically* sampled and the 181 judgmentally**
       selected transactions, we also determined whether TVA Form 17567, Request for VISA Gold
       Card, was completed and approved, as required, before issuance of the respective Gold
       Card.




       This inspection was conducted in accordance with the “Quality Standards for Inspections.” In addition to our
       review of Gold Card expenditures, we plan to conduct a separate review of hospitality expenditures.




       * We used statistical attribute sampling methodology to identify the sample size, and the sample selections were
          made randomly. The sample size was based on a 95 percent confidence level, a 5 percent maximum tolerable
          error rate, and a 5 percent risk of incorrect acceptance.
       ** Our judgmental sample included all transactions that were $4,980 or greater.



                                                                                                                          8
Finding 1 - Compliance with Policies

    Based on the results of our review, it appears that Gold Cards generally are
    being used in compliance with TVA policy.

                         Control Tests                                                     Test Results
     Determine if approving managers are electronically               We found that 76 of the 4,876, or 1.6 percent, of the VISA
     approving statements in the TVA Integrated Credit Card           Gold Card statements during our review period were not
     Solution (ICCS) system, as required by the VISA Gold Card        approved. The last unapproved statement noted was dated
     Executive Expense Procedure.                                     10/23/05.


     Determine if TVA paid any VISA Gold Card charges that            For our review period, we found 39 of the 23,087 VISA Gold
     were also reimbursed to cardholders.                             Card transactions appeared to have been reimbursed to the
                                                                      cardholder through the ERS and paid by TVA through the
       •   According to TVA Business Practice 3, “TVA pays the        VISA Gold Card Program. The questioned transactions
           monthly statement for all VISA Gold Executive              totaled $801.
           Expense Cards which are reviewed by the users and
           approved by his or her approving official. Those who
           use the card for travel, should file travel vouchers
           through TVA’s Expense Reimbursement System (ERS)
           only for travel expenses not charged to the card.”


     Determine if VISA Gold cardholders and approving officials       We noted no exceptions for the cardholders and approving
     completed the on-line Hospitality training module, as required   officials applicable to our review period.
     by Business Practice 3.



                                                                                                                                   9
Finding 1 - Compliance with Policies
(continued)

                             Control Tests                                                   Test Results
         Determine if VISA Gold Card charges were supported by a        No receipt was provided to support the expenditure for 13 of
         receipt. (TVA organizations are required by policy to          the 280, or 4.6 percent, of the sampled transactions we
         maintain terminated individual’s documentation for review.)    reviewed.1

         Determine if purchases were for items allowed under TVA        We noted no exceptions for the 280 sampled transactions we
         policies.                                                      reviewed.

         Determine if purchases were made in a manner compliant         For five of the transactions in our samples that were
         with TVA policies.2                                            expended for travel related charges, we found the Gold Card
                                                                        was used to pay for travel expenses of other VISA Gold
                                                                        cardholders and non-card holding TVA employees.3




     1   Four individuals for which five receipts in the above total were not supplied are no longer with TVA.
     2   Per Travel Allowance and Reimbursement Accounting Procedure 15, “Employees are prohibited from charging travel
         expenses of other TVA employees who are in travel status except where it is impractical to separate charges, where doing so
         would interfere with the conduct of business, or where an event is coordinated for a large group.”
     3   Classification of transactions is based on the TVA Cost Class Code assigned to the transactions by the cardholder.




                                                                                                                                  10
Finding 1 - Compliance with Policies
(continued)

                            Control Tests                                                         Test Results
     Determine whether TVA Form 17567, Request for VISA Gold               Employee Accounting was unable to provide the required TVA
     Card, was completed and approved, as required, before                 Form 17567 for 67 of the 90, or 74.4 percent, of the
     issuance of the respective VISA Gold Card.                            cardholders applicable to our random sample.


     Determine if purchases were made in a manner compliant                For five of the transactions in our samples that were classified
     with TVA policies.4                                                   as hospitality, the highest ranking TVA official did not put
                                                                           hospitality expenses on his/her VISA Gold Card.5, 6



     Determine if purchases were accounted for in the appropriate          We found 46 of 280 sampled transactions, or 16.4 percent,
     TVA cost classification.                                              were coded to a TVA cost class that appeared to be incorrect.
                                                                           Examples included: $8,473 biological material cleanup
                                                                           charged to executive travel and $9,180 of Logan’s gift cards
                                                                           charged to in-valley travel.




     4   Business Practice 7, Hospitality, states: “As a general rule, at restaurants and other similar events, the highest ranking TVA
         official in attendance should charge the expenditure to his/her Gold Card.”
     5   Classification of transactions is based on the TVA cost class code assigned to the transactions by the cardholder.
     6   Additionally, for one transaction classified as hospitality, we found the cardholder was the pre-approving official for hospitality
         charged to their own Gold Card.



                                                                                                                                         11
Finding 2 - Adequacy of Policies

    During our review of TVA policies and procedures applicable to the “Gold Cards,” we noted:
       Only Accounting Procedure 15, Travel, requires detailed receipts showing description of
        items purchased, quantities purchased, and unit price.
       Only Business Practice 7, Hospitality, addresses having the highest ranking TVA official
        charge the expenditure to his/her Gold Card when more than one TVA employee is
        present.
       Business Practice 7, Hospitality, does not require detailed documentation of
        entertainment expenses.* Specifically, documenting:
             –    The nature of the business discussion or activity is not required.
             –    Names, titles, or other key information about the recipients which discloses their business relationship to TVA is not
                  required.**




        * Hospitality paid for and provided by TVA may include (1) meals; (2) refreshments; (3) banquet and food services;
          (4) room and equipment rental (associated with hospitality); (5) lodging, meals, travel expenses for visitors and other
           invited guests, and interviewees; and (6) entertainment and non-cash gifts associated with TVA-sponsored events.

        ** We noted that Internal Revenue Service guidelines for other corporate entities require the detailed documentation
           of entertainment expenses. TVA could consider adopting a similar policy or other best practices.


                                                                                                                                      12
Finding 2 - Adequacy of Policies
(continued)
    We observed the following control weaknesses which increase the risk of Gold
    Card misuse and/or fraud in addition to the non-compliances noted above:
     Number of                                        Control Weakness Observations
     Instances          Noted During Our Review of Randomly and Judgmentally Selected Transactions
              135    Receipt provided did not clearly identify the item/service provided (e.g., receipt only showed
                     a lump-sum total of charges and vendor name).
               34    Hospitality pre-approvals were requested by someone other than the cardholder, which, in
                     our opinion, facilitates a lack of accountability.
               27    Hospitality pre-approvals (1) were not filled out completely, (2) were signed after the event
                     date, and/or (3) did not cover all hospitality expenditures (i.e., charges exceeded the pre-
                     approved amounts ).
               10    Gold cardholder used another employee’s Gold Card to pay for non-travel related charges.
                     While this does not violate any TVA policy, this practice makes it difficult to ensure
                     accountability.
                 8   Transactions were split* that, if combined, would have required pre-approval.
                 6   Gold Card account number was distributed via e-mail and/or fax.

    * Through analytical review, we identified those transactions where charges had been made at the same
      vendor on the same day for amounts that, when added together, were within a range of the $500 and $5,000
      pre-approval limits for Hospitality charges.


                                                                                                                 13
Finding 3 - VISA Gold Card Use

    Our review of Gold Card expenditures found the use of the Gold Card was for
    various purposes, including travel, meals, hospitality/gifts, economic development,
    employee meetings and employee appreciation, and employee recruitment.
       Based on the Merchant Category Code provided by the bank administering the Gold Card
        Program, we determined that Food & Drink and Lodging represented 30 percent and
        36 percent of the total expenditures, respectively.




                                 FOOD & DRINK
                                 $1,147,436, 30%
                                                    REMAINDER
                                                   $1,311,770, 34%
                                  LODGING
                               $1,414,658, 36%




                                                                                         14
Finding 3 – VISA Gold Card Use
(continued)
       $981,000 of the $1.312 million shown as remaining expenditures in the chart
        above applies to the following 13 vendor types.
         –   Retail Stores - $156,000
         –   Direct Marketers - $114,000
         –   Recreation - $94,000
         –   Other Business Services - $89,000
         –   Non-restaurant Food - $84,000
         –   Rental Cars - $69,000
         –   Florists - $69,000
         –   Auto Repair/Fuel Service - $68,000
         –   Membership Organizations - $64,000
         –   Airlines - $52,000
         –   Golf Courses - $52,000
         –   Charities and Social Service Organizations - $41,000
         –   Universities, Pro Schools, Junior Colleges - $29,000




                                                                                 15
Finding 3 – VISA Gold Card Use
(continued)
    We noted instances where the documented justifications for Gold Card use for activities such
    as limousine service; alcohol consumption; sporting events; and gifts and gratuities, primarily
    for employee meetings and economic development events, were not adequate to show that
    potential benefits warranted the expenditures.

    Travel, Employee Meetings, and Employee Appreciation
    Taxi/Limousines – We noted 33 charges totaling approximately $13,215, an average of $400. In the
    transactions selected for testing, we noted two transactions with American Executive Limousine Service for
    ground transportation in the Washington, D.C., area. Specifically:
          –   A TVA senior vice president spent $525 on May 2, 2006, for limousine service in the Washington, D.C., area.
                  Supporting Justification – While no explanation or justification was originally included with the supporting
                    documentation for the transaction, the organization provided additional information after reviewing our proposed
                    report. The additional information stated the charge was for limousine service on May 6 and 9, the first and last
                    days of a four-day trip. Limousine service was used on those days due to the business nature of the meetings,
                    timeliness, and safety. The justification included the relatively short time frames to get to the meetings, the high-
                    level nature of the meetings, and the late ending time. Meeting times on March 7 and 8 allowed for metro
                    service.

          –   On February 23, 2006, a TVA executive vice president and three others used the limousine service for travel from
              Dulles International Airport to a meeting and back at a cost of $542.75.
                 Supporting Justification – The justification provided was that TVA has participated in the highly visible event,
                     Federal Engineer of the Year Award Ceremony, for several years and has used this service for the event. The
                     justification provided to us stated, “We believe this service is the most cost-effective and efficient means for
                     transporting the participants to and from the event.”




                                                                                                                                  16
Finding 3 - VISA Gold Card Use
(continued)
       2005 TVA Super Challenge – Our review also noted a VISA Gold Card charge for the
        Renaissance Hotel in Nashville, Tennessee, of $5,185. This was for a 2005 TVA Super
        Challenge planning meeting on February 3 and 4, 2005, consisting of 19 employees and
        one spouse. Documentation provided as support for a separate transaction indicated
        that the 2005 TVA Super Challenge itself would only cost a total of $8,073. Included in
        the $5,185 charges for the planning meeting were:
         –   $241 for valet parking even though each attendee was given a coupon for self-parking at no
             additional charge
         –   $659 for alcoholic beverages
         –   $75 for a bartender at dinner
                  Supporting Justification – No additional explanations/justification were provided


       Customer Service and Marketing (CS&M) Meeting – Our review of sampled transactions
        noted that approximately $17,751 was spent on a CS&M all employee meeting held at
        Cedarvine Manor in Lebanon, Tennessee, on November 29, 2005. Approximately
        $10,971 of the charge was for employee appreciation gifts.
         –   Supporting Justification – On TVA Form 17901, TVA Pre-Approval of TVA Hospitality
             Expenditure, it stated the “Potential Benefit or Risk To TVA” was “The purpose of this meeting is
             to allow several key leaders within TVA to provide employees with information regarding TVA’s
             and CS&M’s strategic direction.”




                                                                                                            17
Finding 3 – VISA Gold Card Use
(continued)

       Gift Cards – We noted several transactions where gift cards were purchased at various
        businesses including Wal-Mart, Red Lobster, Bath and Body Works, Bass Pro Shops,
        and Logan’s Roadhouse. Supporting documentation received for the majority of these
        transactions did not indicate whether records were kept on the distribution of the gift
        cards.


    Hospitality and Economic Development*
       Wine Tasting Event – Our review of sampled transactions noted that $3,055 was spent at
        Ciccone Vineyard in Traverse City, Michigan, for a wine tasting event for automotive
        executives. The event was held on August 10, 2006.
            –    Supporting Justification – On TVA Form 17901, TVA Pre-Approval of TVA Hospitality
                 Expenditure, no apparent risk was noted. It did state:
                        The event purpose was “Hospitality event for automotive executives attending Management
                         Briefing Seminar in Traverse City.”
                        The potential benefit to TVA was, “Marketing Exposure.”




    * We noted several events outside the Valley with the documented purpose being to promote the Valley, show customer
      appreciation, and attract new clients.




                                                                                                                          18
Finding 3 - VISA Gold Card Use
(continued)
       Sporting Events – Our review of sampled transactions noted that approximately $106,384
        was spent on tickets and food purchased at sporting and theatrical events. Tickets for
        sporting events included the New York Yankees, Detroit Tigers, Detroit Lions, Anaheim
        Mighty Ducks, and Dallas Mavericks; as well as teams located within the Tennessee
        Valley.
         –   $4,250 was spent on a New York Yankees’ game in May 2005. In February 2006, an additional
             $7,500 was spent on a suite for a Yankees’ game to be played in May 2006.
                  Supporting Justification – No explanation or justification was provided for the $4,250 charge.
                  Supporting Justification – A TVA Form 17901, TVA Pre-Approval of TVA Hospitality Expenditure,
                   was provided for the $7,500 charge. No apparent benefit or risk was noted on the form dated
                   January 26, 2006. It did state:
                      –   The event purpose was, “Hospitality Event for Site Consultants and Prospects.”
                      –   The total estimated cost was $12,000.
         –   $5,650 was spent on a suite, platinum parking passes, and four extra tickets at an April, 7, 2005,
             Dallas Mavericks’ game.
                  Supporting Justification – On TVA Form 17901, TVA Pre-Approval of TVA Hospitality Expenditure,
                   which was provided to us as supporting documentation for the expenditure showed that (1) no
                   potential benefit or risk to TVA was noted and (2) no approval by a TVA officer, as required, was
                   found. It did state:
                      –   The event purpose was, “Networking with site selection consultants, clients and potential clients
                          located in the Dallas area.”
                      –   The total estimated cost was $10,000.




                                                                                                                              19
Finding 3 - VISA Gold Card Use
(continued)
       Georgia Aquarium – Our review of sampled transactions noted that approximately
        $16,321 was spent on a February 13, 2006, event at the Georgia Aquarium.
        Supporting documentation showed total costs of $16,986. Later adjustments were
        made which reduced the total to $16,321. The $16,986 included (1) 2,200 for facility
        rental; (2) 9,677 for reception food; (3) 2,622 for standard bar charge; and (4) 2,487
        set-up fee (i.e., audio visual services, parking, coat check, and aquarium admission).
        In addition, $2,495 was spent on glasses as gifts to be distributed at the event.
         –   Supporting Justification – A TVA Form 17901, TVA Pre-Approval of TVA Hospitality
             Expenditure, was provided for the charges. No apparent benefit or risk was noted on the form.
             It did state:
                      –   The event purpose was, “Networking reception for Site Consultants and Prospects.”
                      –   The total estimated cost was $15,000 to $20,000.


       Cigar Store Purchases – Our review of sampled transactions noted 14 transactions at
        Cigar Stores totaling approximately $2,138. All 14 transactions were on one
        individual’s Gold Card. We reviewed two transactions for $150.00 and $158.04, dated
        January 11, 2006, and February 4, 2006.
         –   Supporting Justification for the $150.00 transaction indicated that it was for gifts during talks
             with legislators and administrative officials about ethics reform.
         –   Supporting Justification for the $158.04 transaction noted it as “gifts.”




                                                                                                                 20
Recommendations

   We recommended the vice president and controller:
      Revise Gold Card policies and procedures to:
        –   Require detailed supporting documentation for each transaction including the description of the materials
            or services, the quantity, unit price, and amount
        –   Require documentation of the nature of the business discussion or activity and occupations or other
            information such as names, titles, or other designations about the recipients that show their business
            relationship to TVA for all hospitality expenditures
        –   Require the highest ranking TVA official present to charge the event to his/her Gold Card for non-travel
            related charges. (Travel should be charged to each individual employee’s Travel Card per the Travel
            policy.)
        –   Prohibit splitting of transactions; thereby circumventing approval requirements
        –   Prohibit the sharing of Gold Card numbers and security data with other TVA employees and personnel
            external to TVA via e-mail and fax
        –   Require Gold cardholders to use their own card rather than another Gold Card for purchases to ensure
            cardholder accountability
      Reemphasize the importance of Gold Card, Hospitality and Travel procedure compliance, including:
        –   Ensuring Gold Card purchases are not also reimbursed through ERS
        –   Ensuring expense documentation provided meets policy requirements
        –   Ensuring the proper cost class is associated with the transaction
        –   Ensuring retention of supporting documentation when employees leave the organization
        –   Ensuring retention of Gold Card justification forms
        –   Ensuring that Hospitality pre-approvals are filled out completely (with risks, benefits, purpose, etc.),
            signed prior to the event date, and that charges do not exceed the pre-approved amounts



                                                                                                                       21
APPENDIX
Page 1 of 1
